Department of Homeland Security
   Ofﬁce of Inspector General


              FEMA Temporary Housing 

            Property Management Controls 





OIG-10-24                                    December 2009
                                                                   Office ofInspector General

                                                                   U.S. Department of Homeland Security
                                                                   Washington, DC 25028




                                                               Homeland
                                                               Security
                                   DEC - 8 2009


                                            Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the 1nspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report presents the results of an audit of the Federal Emergency Management
Agency's property management controls governing accountable property. We contracted
with the independent public accounting firm of Urbach Kahn & Wedin LLP (UKW) to
perform the audit. The contract required that UKW perform its audit according to
generally accepted government auditing standards. UKW identified certain internal
control weaknesses and determined that FEMA had not effectively captured and
disseminated needed information following Hurricane Katrina. The report contains two
recommendations.

UKW is responsible for the attached report dated August 19,2009, and the conclusions
expressed in the report.

The recommendations herein have been developed to the best knowledge available to our
contractor, and have been discussed in draft with those responsible for implementation.
We trust this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.

                                            yf~;(.~
                                            Richard L. Skinner
                                            Inspector General
                                    August 19, 2009



Mr. Matt Jadacki
Deputy Inspector General for Office of Emergency Management Oversight
Office of Inspector General
Department of Homeland Security
245 Murray Drive, Building 410
Washington, DC 20528


Dear Mr. Jadacki:


This draft report presents the results of our review of the Federal Emergency
Management Agency’s control over accountable property including temporary housing
units. The draft report includes recommendations the agency can implement to enhance
the accountable property system’s overall effectiveness. We performed the audit as
stipulated in Task Order TPDFIGBPA070009-0072.

We conducted the performance audit in accordance with Government Auditing
Standards, July 2007 Revision. The audit objectives were to assess property
management controls and practices at FEMA and provide recommendations for
improvements of the accountable property system including LIMS and within the THU
Program and Logistics Management Directorate. We appreciate the opportunity to have
conducted this audit and appreciate the cooperation of FEMA’s housing and logistics
staff. Should you have any questions, or if we can be of any further assistance, please
call me at (571) 227-9500.



                                                       Sincerely,

                                                       Roger Von Elm
                                                       Roger Von Elm, CPA, CGFM
                                                       Partner
Table of Contents/Abbreviations 



Executive Summary .........................................................................................................................1

Background ......................................................................................................................................2

Results of Audit ...............................................................................................................................4

     Temporary Housing Property Management...............................................................................4

     Conclusion .................................................................................................................................7

     Recommendation .......................................................................................................................7

     Other Program Issues.................................................................................................................7

     Recommendation .......................................................................................................................8

     Management Comments and OIG Analysis ..............................................................................8




Appendices
     Appendix A: Purpose, Scope, and Methodology.....................................................................9 

     Appendix B: Management Comments to the Draft Report ...................................................10 

     Appendix C: Report Distribution ..........................................................................................12 




Abbreviations
     DHS                    Department of Homeland Security
     FEMA                   Federal Emergency Management Agency
     LMD                    Logistics Management Directorate
     OIG                    Office of Inspector General
     THU                    Temporary Housing Unit
     UKW                    Urbach Kahn & Werlin LLP




                                   FEMA Temporary Housing Property Management Controls
Executive Summary

             The Federal Emergency Management Agency has made progress in
             reorganizing its logistics function in response to a 2006 congressional
             mandate. In 2007, the agency created the Logistics Management
             Directorate that has since strengthened operations, asset visibility, and
             coordination with other emergency providers, and has increased
             staffing with experienced logisticians.

             As part of these initiatives, the agency has significantly improved
             logistics property management by enhancing guidance, processes, and
             controls, and by establishing new reporting tools to enhance property
             management of housing units and other accountable property. The
             property management division within the Logistics Management
             Directorate now includes a dedicated internal review group assigned to
             perform detailed tests of property data, including semiannual and
             annual inventory counts. Under the newly structured directorate, the
             agency also created several new positions to oversee and monitor the
             effectiveness of its property management controls, including a
             property management division chief and a temporary housing unit
             branch chief.

             Notwithstanding these recent initiatives, the agency lacks adequate
             control over some aspects of its accountable property systems and
             needs to take corrective action to address the conditions that include
             inaccurate and unreliable data, noncompliance with existing
             procedures, and the lack of an adequate system to manage temporary
             housing units.

             We are making two recommendations to address these property
             management challenges in an effort to assist the Federal Emergency
             Management Agency in its oversight of the temporary housing unit
             program.




                                     1
             FEMA Temporary Housing Property Management Controls
Background
               In the aftermath of Hurricane Katrina, the demand for temporary
               housing to meet the needs of several hundred thousand displaced
               individuals was unprecedented. The Federal Emergency Management
               Agency (FEMA) contracted with numerous manufacturers to provide
               on short notice more than 130,000 Temporary Housing Units (THUs)
               and to furnish general temporary housing management services.
               Without a well-developed housing program at that time, FEMA lacked
               guidance and controls on acquiring, receiving, maintaining, tracking,
               and disposing of temporary housing units and related equipment. See
               figure 1 for an example of a FEMA THU staging area.


        Figure 1. FEMA Staging Area Housing Units




        Source: OIG 2008 photo

               As part of the restructuring mandated by the Post-Katrina Emergency
               Management Reform Act of 2006 (Public Law 109-295), FEMA
               reorganized its logistics function, and created the Logistics
               Management Directorate (LMD) in April 2007 to oversee the storage
               and delivery of disaster materiel, including THUs.
               Figure 2 displays LMD’s organization chart.




                                       2
               FEMA Temporary Housing Property Management Controls
Figure 2: Logistics Management Directorate Organization Chart




Source: OIG prepared using FEMA data

Under the newly structured directorate, FEMA created several new positions
to oversee property management, and hired new field coordinators and site
managers in June 2008 to manage its storage sites. To monitor inventory, a
dedicated internal review group performs detailed tests of property data,
including semi-annual and annual inventory counts. Plans call for several
initiatives to improve the effectiveness of the housing program, including 1)
reducing the number of housing units shipped directly to disaster sites, 2)
creating a “strike team” to assist disaster personnel with logistics
management, 3) implementing a lifecycle management system for housing
assets, and 4) developing a long-term strategic vision. Yet even with the
recent improvements, the LMD acknowledges that significant deficiencies
exist in the management of housing units, including insufficient visibility over
units deployed to the field and a lack of property controls over units at disaster
sites.

FEMA currently maintains an inventory of more than 130,000 THUs (travel
trailers and manufactured housing) that were used to shelter hurricane victims,
but are now considered non-mission capable. FEMA plans to dispose of most
of the current inventory. FEMA will eventually increase the number of ready­
for-dispatch units from the current number of 2,229 to about 4,000 units that
will be available in case of a disaster. This number will be augmented by
units acquired from vendors, as needed. Figure 3 provides a breakdown of
mission-capable housing units by storage location.




                                3
        FEMA Temporary Housing Property Management Controls
                   Figure 3: Number of Units and Percent Mission Capable
                    Location          Number of      Number of Units           Percent Mission
                                      Units          Ready for Dispatch        Capable
                                                     (Mission Capable)

                    Selma, AL               10,676                   1,301                12%

                    Hope, AR                18,174                       615               3%

                    Cumberland, MD           1,243                       313              25%

                    Other Sites            107,568                        0                0%

                    Total                  137,661                   2,229                 2%



                   Source: Urbach Kahn & Werlin based on data provided by FEMA


Results of Audit
          Temporary Housing Property Management
                   Although FEMA has controls in place to ensure that its system can accurately
                   reflect what is on hand and can track asset movement, we identified problems
                   related to missing documents, noncompliance with established procedures,
                   and a need for guidance regarding records maintenance. During our
                   fieldwork, we selected seven of the largest storage facilities that contain 65%
                   of FEMA’s THU inventory. The results of our tests are summarized below.

                   Transaction Controls: When units arrive at the storage sites, several controls
                   are in place to ensure that the receiving process is completed and the housing
                   units are received and recorded in a manner consistent with established
                   criteria. 1 Established controls include (1) recording and inspecting incoming
                   units, (2) reconciling received assets with shipping documents, (3) recording
                   discrepancies, (4) applying an identifying barcode, and (5) scanning assets
                   into the automated system.

                   During our review, we identified insufficient management controls at some
                   sites, including insufficient separation of duties between receiving functions.
                   Controls varied from site to site; some locations required a second review and
                   sign-off, while others did not. Furthermore, the data entry function does not
                   have adequate supervision and is susceptible to the transaction errors we
                   found, including inaccurate, incomplete, and unreliable records.

                   Accountable Property Records: We observed procedures, examined
                   processes and paperwork related to initial property receipt and subsequent

1
    FEMA’s Property Management Manual 6150.1, and Logistics’ Standard Operating Procedures.
                                                     4
                            FEMA Temporary Housing Property Management Controls
transfer, and compared a sample of inventory to records. In 46% (77 of 167) of
the cases, the records were not adequate to document the original receipt of
housing units. For example, either the original bill of lading could not be
located or other evidence of receipt of the property could not be verified. In
some cases, the insufficient information made it difficult to determine when
FEMA received the property. Officials told us that many records were lost in
the aftermath of Hurricane Katrina when record maintenance and retention
procedures were not closely followed at the government-managed and
contractor-managed housing sites while the units were occupied by disaster
victims. Figure 4 shows the breakdown of housing unit samples with receipt
documentation.

Figure 4. Receipt Documentation




         Inadequate
           Record                              Adequate
            46%                                 Record
                                                 54%




Source: Urbach Kahn & Werlin data

After disaster victims were relocated to more permanent accommodations, the
THUs were transferred to storage sites for cleaning and refurbishment, or for
eventual disposal. Our tests disclosed that 49% (81 of 167) of those returned
units did not have adequate transfer documentation. Often, the transfer of
several housing units was recorded on a single transfer document, and data
entry errors occurred when the units were not shipped at the same time or
were shipped to multiple locations. When this occurs, FEMA can lose track
of some housing units, which happened to about half of the units in our
sample. Additionally, FEMA can lose track of items that it transfers when
they do not use hand receipts (also known as custody receipts) that are used to
account for and control nonexpendable and sensitive items transferred
between sites and personnel. Prior OIG reports identified this as a problem
and determined that many travel trailers and manufactured housing units could




                               5
       FEMA Temporary Housing Property Management Controls
                not be located. 2 Figure 5 displays the breakdown of housing unit samples
                with transfer documentation.


                Figure 5. Transfer Documentation




                         Inadequate
                                                                    Adequate
                           Record
                                                                     Record
                            49%
                                                                      51%




                Source: Urbach Kahn & Werlin data

                We also tested other accountable assets at these facilities, (e.g., trucks, radios,
                transponders, tents) and could not locate 16% (7 of 45) of the items in the
                inventory. Further, site personnel had not updated the property records to
                show 4% (2 of 45) of the items located on the site.

                Recently, FEMA enhanced inventory records to include full transaction
                histories for asset acquisition, transfer, and disposition. On a case-by-case
                basis, the property managers were able to provide full transaction histories of
                our sample to show the movement of housing units when the records were
                otherwise unavailable.

                Site Mapping: Site mapping is an automated inventory management tool that
                identifies the precise location of each THU or other accountable item. We
                conducted tests of housing units and related property to verify whether the
                listed units actually existed and whether all units in storage were properly
                entered into agency records. We determined that 15 % (49 of 320) of housing
                units could not be initially located at storage sites and required additional
                searching before they were found. This occurred because the site maps had
                not yet been updated to reflect the current location of the units. In those cases
                where site maps were up to date, site personnel were able to locate all units in
                our sample. Currently, storage site personnel have completed updating site


2
  Logistics Information Systems Need to Be Strengthened at the Federal Emergency Management Agency
(OIG-08-60), May 2008, and Hurricane Katrina Temporary Housing Technical Assistance Contracts (OIG-08­
88), August 2008.

                                                  6
                        FEMA Temporary Housing Property Management Controls
     maps at FEMA’s three primary housing storage sites: Cumberland, MD;
     Hope, AR; and Selma, AL. In addition, as part of a recently developed
     standard operating procedure, FEMA is implementing a uniform site map
     scheme and is updating site storage records through periodic inventory counts
     and the expanded use of handheld barcode scanners.

Conclusion
     Most of the instances of missing records that we encountered involved
     returned Katrina-era housing units that are not mission-capable and scheduled
     for disposal. Regarding the mission-capable units, and all future incoming
     units, FEMA needs to ensure that established procedures for receipt and
     transfer of units are followed consistently at all storage sites. Although
     positive steps have been taken to improve asset visibility through enhanced
     site mapping, more needs to be done to strengthen controls over recording
     transactions at the sites and ensuring that they are entered into agency records.

Recommendation
     We recommend that the Administrator, Federal Emergency Management
     Agency:

     Recommendation #1: Ensure that storage sites consistently follow
     established procedures for recording transactions and entering them into
     agency records.

Other Program Issues
     In connection with this audit, we observed that FEMA’s property management
     system is also inadequate to meet more specific temporary housing program
     management requirements. LMD personnel have identified the need to track
     extensive details on THUs’ attributes (e.g., number of bedrooms, wheelchair
     accessibility, appliances, heat and air conditioning features) so an appropriate
     unit can be deployed where needed. They also report the need to track life-
     cycle information such as unit condition, the status of repairs and
     refurbishment. To meet those needs, storage site personnel have found it
     necessary to create manual spreadsheets that they use to track specific THU
     attributes that are not currently captured in FEMA’s existing automated
     system.

     Without an effective system to manage THU, FEMA is hindered in day-to-day
     operations and cannot accurately track and report detailed information on
     mission-capable housing units. The current makeshift process is not prepared
     with, or reconcilable to, FEMA’s existing automated system. The lack of a
     comprehensive process for capturing data necessary to support program needs
                                    7
             FEMA Temporary Housing Property Management Controls
     results in stakeholders making management decisions without having the
     benefit of complete and accurate information to support those decisions.

     In 2008, FEMA announced plans to upgrade its enterprise information
     technology systems as funding becomes available over the coming 5 years.
     Consideration should be given to the need for maintaining detailed records of
     mission-capable THUs when planning system upgrades.

Recommendation
     We recommend that the Administrator, Federal Emergency Management
     Agency:

     Recommendation #2: Identify critical data requirements for the temporary housing
     program and incorporate those enhancements into the planned agency-wide systems
     upgrades.

Management Comments and OIG Analysis

     As indicated in the management response to our September 2009 draft report
     (see Appendix B), FEMA has concurred with each of the recommendations
     and has agreed to notify the OIG concerning the agency’s actions taken or
     planned to implement them. We consider both of the recommendations
     resolved because of the steps proposed to address them, and will close the
     recommendations as corrective actions are implemented.




                                    8
            FEMA Temporary Housing Property Management Controls
Appendix A
Purpose, Scope, and Methodology



                   The Office of Inspector General contracted with Urbach Kahn &
                   Werlin LLP, Certified Public Accountants, to audit FEMA’s
                   temporary housing management controls. The audit objectives
                   were to assess property management controls and practices at
                   FEMA and provide recommendations for improvements of the
                   accountable property system as managed by the Logistics
                   Management Directorate’s temporary housing unit program.

                   The scope of the audit covered property management controls
                   since the program’s formation in 2004 and practices in relation to
                   the temporary housing units purchased directly by FEMA for
                   hurricane relief efforts, as well as items to include vehicles,
                   tractors, and other equipment at logistics’ housing storage/staging
                   sites. We reviewed FEMA’s current temporary housing inventory
                   and selected a sample of units to test the accuracy of the data by
                   performing existence and completeness testing over inventory
                   recorded in the logistics system as of March 2009.

                   This audit was performed under the authority of the Inspector
                   General Act of 1978, as amended. Audit fieldwork was conducted
                   from January through May 2009 in the Washington, DC, area and
                   at several field sites. We conferred with FEMA officials
                   throughout the audit, discussing control processes, procedures, and
                   current property management initiatives. Field sites included
                   temporary housing storage and staging sites in Selma, AL; Hope,
                   AR; Lumberton, MS; Lottie, Melville, and Baton Rouge, LA; and
                   Cumberland and Frostburg, MD, where we verified inventories of
                   temporary housing units and other assets, and tested agency
                   records.




                                         9
                 FEMA Temporary Housing Property Management Controls
Appendix B
Management Comments to the Draft Report




                                         10

                 FEMA Temporary Housing Property Management Controls
Appendix B
Management Comments to the Draft Report




                                         11

                 FEMA Temporary Housing Property Management Controls
Appendix C
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      FEMA Administrator
                      FEMA Chief of Staff
                      FEMA Chief Financial Officer
                      FEMA Assistant Administrator, Logistics Management Directorate
                      FEMA Director, Office of Management
                      FEMA Audit Liaison (DP 9O 01)

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                                               12
                       FEMA Temporary Housing Property Management Controls
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
